U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Palillero v. United States, No. 20-1240
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 4, 2021.
The government’s response is now due, after two extensions, on June 28, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
July 28, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1240
PALILLERO, FRANCISCO JAVIER
USA

SCOTT M. DAVIDSON
SCOTT M. DAVIDSON, PH.D., ESQ
1011 LOMAS BOULEVARD NW
ALBUQUERQUE, NM 87102
505-255-9084
SCOTT@JUSTAPPEALS.NET
505-213-7212(Fax)

